i
No.
IN THE
SUPREME COURT OF THE UNITED STATES

RICHARD ALLEN BENSON,
Petitioner,
v.
KEVIN CHAPPELL, WARDEN OF CALIFORNIA STATE PRISON AT SAN QUENTIN,
Respondent.

PROOF OF SERVICE

I, John R Grele, do swear or declare that on this date, April 16, 2021, as required by
Supreme Court Rule 29, I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF CERTIORARI, and
PETITIONER’S APPENDIX on each party to the proceeding or their counsel and on
every other person required to be served, by electronic service.
The names and addresses of those served are DAVID F. GLASSMAN, Deputy Attorney
General, 300 South Spring Street, Suite 1702, Los Angeles, CA 90013,
David.Glassman@doj.ca.gov.
I declare under penalty of perjury that the foregoing is true and correct. Executed on
this 15th day of April, 2021, in San Francisco, California.

z

John R Grele

RECEIVED
APR 2 1 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

